                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: 1-03110066                                                                    Page 1 of 1



          In September 2003, NSF-OIG received an allegation from a confidential source alleging that an
          NSF program director' attempted to solicit a bribe by offering the complainant a quid pro quo
          deal, whereby the complainant would include references to the program director's patents in his
          research results in exchange for the program director guaranteeing NSF funding of a research
          grant. The complainant also alleged that the subject had engaged in paid consultation work while
          working at NSF. A preliminary interview of the complainant identified that the alleged bribe was
          not witnessed by anyone other than he and the subject.

          Although no evidence to support the original allegations was found during the preliminary
          investigation, several unrelated issues involving the subject were identified that required
          additional investigation. These issues included potential conflicts of interests with a for-profit
          cornpan# and possible failure to report income and relationships on the yearly Financial
          Disclosure Reports submitted by the subject.

           Our subsequent investigation documented the subject's relationship with this company and the
           compensation received, both directly and indirectly, by the subject. After reviewing our findings
           with the Designated Agency Ethics Officer (DAEO), it was determined that the subject's action
           with reference to this company did not constitute a conflict of interest. The DAEO also advised
           that, based on numerous exceptions allowed, the subject would not have been required to report
           the compensation that the company paid to others even if it were on the subject's behalf.

           Accordingly, this case is closed.




 NSF 01G Form 2 (1 1/02)
